No. 20-251

In the Supreme Court of the United States
WILLIE GIPSON,
Petitioner
v.
STATE OF LOUISIANA,
Respondent.
On Petition for Writ of Certiorari
to the Supreme Court of Louisiana
PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Opposition was served on each party, or that party’s counsel, as listed below, on
January 19, 2021. Service was made by United States mail—with first-class postage
prepaid.
Yaira Dubin
O’Melveny & Myers LLP
Times Square Tower
7 Times Square
New York, NY 10036
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 19, 2021.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

